BECKER GALLAGHER
Briefs

and

OoNNA
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, herebycertifythat 1 unbound and
40 copies of the foregoing Brief of Amici Curiae
American Medical Association, American Academy of
Allergy, Asthma and Immunology, Aerospace Medical
Association, American Academy of Family Physicians,
American Academy of Pediatrics, American College of
Cardiology, American College of Emergency
Physicians, American College of Medical Genetics and
Genomics, American College of Obstetricians and
Gynecologists, American College of Physicians,
American College of Radiation Oncology, American
College of Radiology, American Psychiatric
Association, American Society of Gastrointestinal
Endoscopy, American Society of Hematology, American
Society of Metabolic and Bariatric Surgery, Endocrine
Society, GLMA: Health Professionals Advancing
LGBTQ Equality, Renal Physicians Association,
Society for Cardiovascular Angiography and
Interventions, Society of Interventional Radiology in
Support of Petitioners in 19-840, California, et al. v.
Texas, et al., were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 13th day of May, 2020:
Samuel Passchier Siegel
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam.siegel@doj.ca.gov

Counsel for Petitioners
California, et al.

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

, BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

J. WOLF, J.D.
KERSHNER,

J.D.

Noel J. Francisco
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.
Kyle Douglas Hawkins
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700
Counsel for Respondents
State of Texas, et al.
Robert Earl Henneke
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
r henneke@texaspolicy.com
Counsel for Respondents
Neill Hurley and John Nantz

Douglas Neal Letter
219 Cannon House Office Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov

Counsel for United States House of Representatives
Leonard A. Nelson
Counsel of Record
Erin G. Sutton
Kyle A. Palazzolo
AMERICAN MEDICAL ASSOCIATION
Office of General Counsel
330 N. Wabash Ave., Suite 39300
Chicago, Illinois 60611
312/464-5532
leonard.nelson@ama-assn.org

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 13, 2020.

DonnaJ. Wo
Becker Gallagher Legal u lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

to

u ( jt,'
Notary Public

i',l ~

{I .

'

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

